Department of the Interior
Office of Inspector General



               Audit Report


           U.S. Fish and Wildlife Service
           Federal Assistance Grants Administered
           by the Commonwealth of Virginia,
           Department of Game and Inland Fisheries,
           from July 1, 2002 through June 30, 2004




 Report No. R-GR-FWS-0021-2005               July 2006
               United States Department of the Interior
                         OFFICE OF INSPECTOR GENERAL
                               12030 Sunrise Valley Drive, Suite 230
                                      Reston, Virginia 20191

                                                                                 July 13, 2006

                                   AUDIT REPORT

Memorandum

To:           Director
              U.S. Fish and Wildlife Service

From:         Christina M. Bruner
              Director of External Audits

Subject:      Final Audit Report on the U.S. Fish and Wildlife Service Federal Assistance
              Grants Administered by the Commonwealth of Virginia, Department of Game
              and Inland Fisheries from July 1, 2002, through June 30, 2004
              (No. R-GR-FWS-0021-2005)

        This report presents the results of our audit of costs incurred and claimed by the
Commonwealth of Virginia (Commonwealth), Department of Game and Inland Fisheries
(Department), under Federal Assistance Program grants from the U.S. Fish and Wildlife Service
(FWS). The audit included total reported outlays of approximately $26 million on FWS grants
that were open during the Commonwealth’s fiscal years ended June 30 of 2003 and 2004 (see
appendix 1). The audit also covered Department compliance with applicable laws, regulations,
and FWS guidelines, including those related to the collection and use of hunting and fishing
license revenues and the reporting of program income.

        We found that the Department complied with applicable grant accounting and regulatory
requirements for administering its Federal Assistance Program grants. However, we found that
the Department did not report $114,436 of timber sales revenue as program income; prepared
annual license certifications using an outdated survey; transferred to another state agency
computer-related equipment that may have been purchased with license revenues; and needed to
improve its management of equipment. We also found the Commonwealth had not passed laws
assenting to the Pittman-Robertson Wildlife and Dingell-Johnson Sport Fish Restoration Acts.
However, the Department initiated corrective action during our audit by drafting a legislative
amendment to comply with the assent requirement. The State Legislature passed the amendment
on February 15, 2006, and the Governor signed it on February 23, 2006. The amendment
became effective July 1, 2006.
       We provided a draft of the report to FWS and the Department for response. This report
includes a summary of Department and FWS responses after each recommendation, as well as
our comments on the responses. We list the status of each recommendation in appendix 3.

       Please respond in writing to the findings and recommendations included in this report by
October 11, 2006. This corrective action plan should include information on actions taken or
planned, target completion dates, and titles of officials responsible for implementation.

       If you have any questions regarding this report, please contact Team Leader Owen
Nicholson at 703-487-5342 or me at 703–487–5353.

cc:    Regional Director, Region 5, U.S. Fish and Wildlife Service




                                               2
                                              Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 authorize FWS to provide Federal Assistance Program grants to states to enhance
their sport fish and wildlife restoration programs. The Acts provide for FWS to reimburse the
states up to 75 percent of the eligible costs incurred under the grants. The Acts also specify that
state hunting and fishing license revenues cannot be used for any purpose other than the
administration of the state’s fish and game department.

Objective
The objective of our audit was to determine whether the costs claimed under Federal Assistance
grants to the Department were incurred in accordance with the Acts and related regulations, FWS
guidelines, and the grant agreements; state hunting and fishing license revenues were used solely
for fish and wildlife program activities; and program income was reported and used in
accordance with federal regulations.

Scope
The audit work included total reported outlays of approximately $26 million on FWS grants that
were open during fiscal years ended June 30 of 2003 and 2004 (see appendix 1). We performed
our audit at Department headquarters in Richmond, Virginia. We also visited three regional
offices, four wildlife management areas, two boating access sites, two hatcheries, one field
office, and one warehouse (see appendix 2). This audit was performed to supplement, not
replace, the audits required by the Single Audit Act of 1984, (as amended) and the Office of
Management and Budget Circular A-133. The audit included steps to determine whether the
Department:

           ¾       has a financial management system adequate to account for grant and license fee
                   receipts and disbursements;

           ¾       incurred and/or claimed only necessary, reasonable, allocable, accurate, and
                   reimbursable direct and indirect costs and in-kind contributions under Federal
                   Assistance Program grants;

           ¾       based hunting and fishing license certifications on official Commonwealth of
                   Virginia records and prepared them using procedures adequate to eliminate
                   duplicate license holders;

1
    As amended, 16 U.S.C. §§ 669 and 777, respectively.



                                                          3
       ¾       used an adequate system to account for and report license fee revenues and to
               ensure those revenues were used solely for Department fish and wildlife
               programs;

       ¾       exercised controls over real property and equipment acquired with Federal
               Assistance Program funds or license revenues adequate to ensure compliance with
               applicable requirements;

       ¾       complied with applicable grant agreement provisions and requirements of the
               Acts, regulations, and FWS guidance; and

whether the Commonwealth of Virginia:

       ¾       enacted assent legislation in compliance with the Acts.

Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. We tested records and performed other auditing
procedures that we considered necessary under the circumstances. Our tests included an
examination of evidence supporting selected expenditures charged to the grants by the
Department, interviews with employees to ensure that personnel costs charged to the grants were
supportable, and a review of Department use of hunting and fishing license revenues to
determine whether the revenues had been used solely for fish and wildlife program purposes. To
the extent possible, we relied on the work of the Commonwealth Auditor of Public Accounts to
avoid duplication of audit effort. We did not evaluate the economy, efficiency, or effectiveness
of Department operations.

We reviewed the financial management systems for labor and license fees to identify the internal
controls over transactions recorded in those systems and to test the operation and reliability of
those controls. Based on the results of our initial assessments, we assigned a level of risk to
these systems and selected a judgmental sample of transactions for substantive testing. We also
reviewed transactions related to purchases, other direct costs, drawdowns of reimbursements, in-
kind contributions, program income, and property. We did not project the results of the
substantive tests to the total population of recorded transactions.

Prior Audit Coverage
On September 4, 2002, we issued advisory report no. 2002-E-0009, “Final Advisory Report on
Costs Claimed by the Commonwealth of Virginia, Department of Game and Inland Fisheries,
Under Federal Aid Grants from the U.S. Fish and Wildlife Service from July 1, 1997 to June 30,
1999.” We followed up on the findings and determined that they had been resolved; however,
Department asset management processes still need improvement (see Asset Management –
Equipment).



                                                4
We also reviewed the Commonwealth Comprehensive Annual Financial Report and the single
audit reports for the fiscal years ending June 30 of 2003 and 2004. However, the Department
was not audited as a major program, and the reports did not include any findings regarding
Federal Assistance funds or programs. The Auditor of Public Accounts also issued a separate
report on the Secretary of Natural Resources Agencies for the period July 1, 2003, to June 30,
2004, and the State Internal Auditor issued a May 23, 2005 Hotline Report. We reviewed these
reports and determined the areas of concern did not indicate weaknesses of any particular system
affecting the Federal Assistance Program grant.




                                               5
                                    Results of Audit
We found that the Department generally complied with applicable regulations and grant
accounting requirements. The:

       ¾       financial management system and related internal controls were adequate to
               account for grant and license fee receipts and disbursements;
       ¾       direct costs, indirect costs, and in-kind contributions claimed under the Federal
               Assistance Program grants were reasonable, supported, and eligible for
               reimbursement;
       ¾       hunting and fishing license fees collection, certification, and disbursement
               processes were adequate and reliable, except as discussed in finding B;
       ¾       asset management system was adequate for identifying and tracking personal and
               real property with regard to acquisition, control, and disposal, except as discussed
               in finding D; and the
       ¾       Department complied with selected grant agreement provisions and requirements
               of the Acts, regulations, and FWS guidance.

However, we found that the Department:

       A.      failed to report $114,436 of program income;
       B.      used duplication rates that were based on a survey more than 5 years old to adjust
               annual license certifications;
       C.      transferred computer-related equipment that may have been acquired with license
               revenues to another state agency; and
       D.      needs to improve its asset management processes.

A.     Program Income
The Department earned $297,187 in revenues from timber sales in FY2003 and FY2004 on
wildlife management areas that receive Federal Assistance Program funds for operation and
maintenance. Of this amount, $114,436 was not identified as program income or reported on the
Financial Status Report (SF-269s) for Grants W-48-D-44 and W-48-D-45.

According to the Code of Federal Regulations (43 C.F.R. § 12.65), program income is gross
income received by a grantee that is directly generated by a grant supported activity. Program
income should be deducted from total grant costs to determine net costs on which the grantor’s
share will be based, or it should be added to project funds to further eligible program objectives.

The Department followed FWS Region 5 guidance and reported only that revenue earned on
wildlife management areas for which Federal Assistance Program funds were used to acquire
land. The Department was unaware that program income should be reported on wildlife
management areas that receive Federal Assistance Program funds for operation and maintenance.
As a result, the Department did not deduct $114,436 program income from the total grant costs


                                                 6
to determine the net costs on which the Federal share would be based for Grants W-48-D-44 and
W-48-D-45.

FWS Region 5 has clarified its guidance to the Department, and all future timber sales revenue
will be reported as program income and applied to the FY2005 grant.

       Recommendation
       We recommend that FWS determine how best to resolve the $114,436 unreported
       program income.

       Department Response
       The Department states that, based on FWS Region 5 guidance in effect during the years
       audited, it categorized and reported revenues from timber sales by the source of funds
       used to purchase the land on which the timber was harvested. This procedure resulted in
       reporting as program income only those receipts from wildlife management areas where
       Federal Assistance Program funds were used to acquire land. The FWS guidance was
       revised by Director’s Order 168 to require the state to include all receipts as program
       income. As a result, the Department reported all timber sales revenue on the FY2005
       grant as program income and plans to follow the same procedures on future grants. In
       addition, the Department indicates there were cost overruns for the two grants specified
       in the finding that exceeded the unreported program income.

       FWS Response
       FWS confirms that the Department properly followed Region 5 guidance in reporting
       program income. Director’s Order 168, issued in October 2004, has revised this
       guidance. Based on recent grant submissions and final financial status reports, the
       Region has determined that the Department is now in full compliance, considers the issue
       resolved, and recommends no further action on the part of the Department.

       OIG Comments
       FWS confirms that the Department has taken corrective action and is now properly
       reporting program income. Based on the FWS response, we consider the
       recommendation resolved and implemented.

B.     Annual License Certifications
The Department completed and submitted annual license certifications for license years (LY)
2003 and 2004 to the Division of Federal Assistance of FWS. The Department used duplication
rates based on a survey that was over 5 years old to make required adjustments for duplicate
license holders. It indicated that it did not have adequate funding to complete a new survey.




                                               7
The FWS Federal Aid Handbook, 522 FW 2.7(1), indicates that if states use a statistical survey
to eliminate duplicate counting, they should conduct a new survey at least every 5 years – or
sooner if the license structure changes.

As a result, the number of hunting and fishing licenses certified by the Department in LY2003
and LY2004 may be inaccurate.

        Recommendation
        We recommend that FWS ensure that the Department completes the required survey to
        validate the annual adjustment for duplicate license holders.

        Department Response
        The Department states that it will complete and document a duplication study in LY2006
        and implement fully an electronic point of sale system for hunting and fishing licenses.
        The system will include a duplication study.

        FWS Response
        FWS plans to work closely with the Department to develop and implement corrective
        actions for this recommendation.

        OIG Comments

        The corrective action proposed by the Department appears to be adequate. However, we
        consider the finding unresolved because FWS did not provide specific information
        regarding it or our recommendation. FWS should address the finding and
        recommendation in the corrective action plan.

C.      Asset Management – Computer-Related Equipment
On October 25, 2004, the Department transferred information technology (IT) personnel and
assets 2 and ownership of those assets to Virginia Information Technology Agency (VITA).
However, the Department does not identify the specific type of funds used to purchase IT
equipment. License fees may have been the source of funding for some of the transferred assets
because the Department deposits license fees and other revenues into the Game Protection Fund
and uses these funds for equipment purchases.

The Department transferred the IT assets under Virginia Executive Order 50(30), which was
issued to comply with Virginia General Assembly legislation passed in 2003. On September 17,
2004, the Department signed the transition overview document that specified terms of the
transfer. Recognizing its responsibilities under the Federal Assistance Program, the Department

2
  These assets included data centers; servers; telecommunications equipment, services, and networks; desktop and
laptop computers; portable devices and peripherals; and all associated software.


                                                        8
added a section to the agreement. The new section requires that all Department-bought IT assets
be used only for state fish and wildlife management activities.

Section 80.4 of title 50 C.F.R. precludes use of hunting and fishing license revenues for other
than administration of the state fish and wildlife agency. When the state fails to meet this
requirement, the FWS Director may declare a diversion of license revenues. Upon the issuance
of such a declaration, the state becomes ineligible to participate under the pertinent restoration
act until corrective action is taken. The state must restore all diverted license revenues and assets
acquired with license revenues, or it may make an amount equal to the license revenue diverted
or the current market value of assets available for use for the administration of the state fish and
wildlife agency.

The Department no longer controls computer-related equipment that may have been purchased
with license revenues. It cannot ensure any such equipment would be used for fish and wildlife
activities.

       Recommendation
       We recommend that FWS:

       1.      determine whether the transfer of ownership of Department IT assets constituted a
               diversion of license revenues and

       2.      resolve the diversion, if it occurred, according to the requirements of 50 C.F.R.
               § 80.4(d).

       Department Response
       The Department states that VITA will work with the Department and FWS to ensure that
       computer-related equipment is used solely for Department purposes until it reaches the
       end of its useful life or is fully depreciated.

       FWS Response
       FWS plans to work closely with the Department to develop and implement corrective
       actions for this recommendation.

       OIG Comments
       Since corrective action has not been taken or proposed by the Department or FWS, we
       consider the finding and recommendation unresolved. FWS should address the finding
       and recommendation in the corrective action plan.




                                                 9
D.      Asset Management – Equipment

Using two inventory lists, we inspected property at ten sites 3 , as well as the Department
headquarters in Richmond, Virginia. We selected a judgmental sample from each list and, with
the assistance of the staff at each location, inspected the sample of vehicles, equipment, and
computer-related items. We found that not all items were tagged and that inventory listings
contained inaccurate and incomplete data.

According to 50 C.F.R. § 80.19, the State must maintain current and complete property records
according to the requirements in the Service Manual and OMB Circular A–102. The
Commonwealth Accounting Policies and Procedures Manual requires that each fixed asset be
assigned responsibility to a specific person and be tagged with a unique number. Information
such as tag number, item description, historical cost, and acquisition date is entered in the Fixed
Asset Accounting and Control System. Furthermore, a physical inventory of all fixed assets
must be performed at least once every 2 years. Any discrepancies between recorded and actual
inventories must be resolved by submitting revised input forms and, if necessary, tagging.

The Department provided an equipment inventory listing generated from the Asset Management
System 4 , which is maintained by the Administrative Services Division. It identified 1,715 items
valued at $23.6 million, including vehicles and equipment. Our judgmental sample included 232
items valued at $2.7 million. We verified that the items existed and were properly tagged and
that related data in the inventory listing was accurate.

Of the items sampled, we found:

        ¾        18 untagged items valued at $95,915;
        ¾         4 improperly tagged items valued at $16,650 (the property tag number and
                    inventory listing did not match);
        ¾        22 incorrectly tagged items valued at $328,638 (locations differed from those
                    identified in inventory); and
        ¾         5 tagged or titled items not listed in the inventory.

We could not find:

        ¾         1 item valued at $7,197;
        ¾        10 items valued at $84,160 (transferred to other locations); and
        ¾         3 items valued at $50,301 (surplussed).

The inventory records were inaccurate and incomplete because tags fell off; tags were illegible
due to age and/or exposure; field personnel failed to install tags supplied by the asset


3
  Regional offices at Williamsburg, Forest, and Fredericksburg Regional Offices; Chesapeake Field Office; Ashland
Warehouse; Montebello and King and Queen Hatcheries; and Chickahominy, Hog Island, Phelps, and Powhatan
Wildlife Management Areas.
4
  The Asset Management System includes information related to buildings, land, improvements, and equipment that
has a value greater than $5,000 or that is titled.


                                                       10
management coordinator; and the asset management coordinator was not told when items were
moved to other locations or disposed.

VITA provided a computer inventory listing that identified 2,116 items ($1.4 million value). Of
these items, 1,242 showed no purchase cost. We selected a judgmental sample of 174 items to
verify that the items existed and were properly tagged and that related data in the inventory
listing were accurate.

Of the items sampled, we found:

       ¾      26 items improperly recorded in the inventory (wrong tag numbers, or different
              location);
       ¾      13 items disposed of as surplus;
       ¾      14 items not on the inventory list, 5 of which were untagged; and
       ¾       6 items listed in inventory with a different custodian or location than what we
              observed.

       Recommendations
       We recommend that FWS ensure that the Department:

       1.     accurately update data in the Asset Management System and tag untagged items
              and

       2.     work with VITA to accurately update the computer equipment inventory.

       Department Response
       The Department issued new asset management and control policy and procedures on
       January 1, 2006, which require an annual inventory of all assets. Printed tags are to be
       replaced with embossed metal plates, and placement of the tags has been standardized.
       These changes should allow the Department to maintain current and accurate asset data.
       VITA concurred with the finding but proposed no corrective action.

       FWS Response
       FWS plans to work closely with the Department to develop and implement corrective
       actions for this recommendation.

       OIG Comments
       The corrective action proposed by the Department regarding its noncomputer-related
       equipment appears to be adequate; however, the Department proposed no corrective
       action regarding computer-related equipment. Since FWS did not specifically comment
       on these findings and recommendations, we consider them unresolved. FWS should
       address the findings and recommendations in the corrective action plan.


                                               11
                                                     Appendix 1


VIRGINIA DEPARTMENT OF GAME AND INLAND FISHERIES
     FINANCIAL SUMMARY OF REVIEW COVERAGE
            July 1, 2002, Through June 30, 2004

       Grant Number   Grant Amount   Total Outlays
       F105D36            $120,000      $118,045
       F105D37              77,764        74,540
       F105D38             216,809       216,809
       F105D39             150,502       150,502
       F107D12             400,000       336,718
       F107D13             695,000       338,614
       F109D11           1,222,000     1,023,375
       F109D12           1,309,000     1,131,544
       F109D13           1,160,000     1,137,091
       F111R11           1,917,000     1,850,857
       F111R12           1,774,000     1,669,145
       F111R13           1,946,000     1,870,279
       F121R4              190,356       190,356
       F121R5              115,367       115,367
       F122R2               36,575        36,575
       F123R1              184,000       129,526
       F123R2              180,000        83,911
       F123R3              190,000       173,641
       F124D1            5,162,258     4,363,627
       F125R1               56,012        56,012
       F127L1               65,875             0
       W31C55              400,000       329,185
       W31C56              400,000       355,789
       W48D44            2,364,084     1,716,096
       W48D45            1,761,167     1,908,577
       W87E1             1,000,000       897,452
       W87E2             1,086,667     1,264,566
       WE99R12           2,756,969     2,630,698
       WE99R13           2,505,919     1,894,582
       Total           $29,443,323   $26,063,478




                            12
                                               Appendix 2


VIRGINIA DEPARTMENT OF GAME AND INLAND FISHERIES
                  SITES VISITED

                     Regional Offices
                          Forest
                      Fredericksburg
                       Williamsburg


                        Hatcheries
                      King and Queen
                        Montebello


                Wildlife Management Areas
                       Chickahominy
                         Hog Island
                          Phelps
                         Powhatan


                        Other Sites
                    Ashland Warehouse
                  Chesapeake Field Office
                 Bent Creek Boating Access
               Horseshoe Bend Boating Access




                            13
                                                                              Appendix 3


    VIRGINIA DEPARTMENT OF GAME AND INLAND FISHERIES
      STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS

Recommendations             Status                         Action Required

A                   Finding Resolved and      No action necessary.
                    Recommendation
                    Implemented
B, C1, C2, D1, D2   Finding Unresolved and    Provide a corrective action plan that
                    Recommendation(s) Not     identifies the actions taken or planned to
                    Implemented               resolve the finding and implement the
                                              recommendation, as well as the basis for
                                              any disagreement with the recommendation.
                                              The plan should also include the target date
                                              and the official responsible for
                                              implementation of the recommendation. If
                                              the recommendation is not implemented at
                                              the end of 90 days (after October 11, 2006),
                                              it will be referred to the Assistant Secretary
                                              for Policy, Management and Budget for
                                              resolution and/or tracking of
                                              implementation.




                                         14
